                        U.S. COMMODITY FUTURES TRADING COMMISSION
                                             Three Lafayette Centre
                                  1155 21st Street, NW, Washington, DC 20581
                                          Telephone: (202) 418-5110
                                           Facsimile: (202) 418-5522



   Office of the
Inspector General



                                        MEMORANDUM


     TO:            Gary Gensler, Chairman

     FROM:          A. Roy Lavik, Inspector General

     DATE:          October 25,2012

     SUBJECT:       Customer Protection Fund Financial Statement Audit Report


    This memorandum transmits the Commodity Futures Trading Commission's Office of the
    Inspector General's (OIG) report on the financial statement for the CFTC's Customer Protection
    Fund. The OIG contracted with an independent public accounting finn Williams, Adley &
    Company-DC, LLP to conduct this audit. My office concurs with Williams Adley's unqualified
    ("clean") audit opinion stated in the attached audit report.

    Should you have any questions regarding this report, please do not hesitate to contact me. We
    appreciate the courtesy and cooperation that you and your staff extended to my staff and
    contractors during this audit.



    Attachment
                                      Independent Auditors’ Report


Chairman and Inspector General of the
U.S. Commodity Futures Trading Commission:

We have audited the accompanying Balance Sheet of the Commodity Futures Trading Commission
Customer Protection Fund (CPF) as of September 30, 2012, and the related Statements of Net Cost,
Changes in Net Position and Budgetary Resources for the year then ended (hereinafter referred to as
financial statements). These financial statements are the responsibility of CPF management. Our
responsibility is to express an opinion on these financial statements based on our audit. The financial
statements of CPF as of September 30, 2011 were audited by other auditors who issued an unqualified
opinion dated October 24, 2011.

We conducted our audit in accordance with auditing standards generally accepted in the United States
of America and standards applicable to financial statement audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States, and the Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
Those standards require that we plan and perform the audit to obtain reasonable assurance that the
financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CPF’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe
that our audit provides a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the net
position of the Customer Protection Fund as of September 30, 2012 and 2011, and its net cost, changes
in net position and budgetary resources for the fiscal years then ended, in conformity with accounting
principles generally accepted in the United States of America.

The information in the Fund’s Annual Report to Congress and the supplementary schedule of Cash Flow
Analysis are not a required part of the financial statements, but are supplementary information required
by the Dodd-Frank Wall Street Reform and Consumer Protection Act. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.

Our audit was conducted for the purpose of forming an opinion on the basic financial statements of CPF
as a whole.

In accordance with Government Auditing Standards, we have also issued our reports dated October 24,
2012, on our consideration of the CPF’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial
reporting nor on compliance. Those reports are an integral part of an audit performed in accordance
with Government Auditing Standards and should be read in conjunction with this report in assessing the
results of our audits.
                   Independent Auditors’ Report on Compliance and Other Matters


Chairman and Inspector General of the
U.S. Commodity Futures Trading Commission:

We have audited the Principal Statements (hereinafter referred to as the “financial statements”) of the
Commodity Futures Trading Commission Customer Protection Fund (CPF) as of and for the year ended
September 30, 2012, and have issued our report thereon dated October 24, 2012. We conducted our
audit in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States: and Office of Management and Budget (OMB) audit guidance.

The management of the CPF is responsible for complying with laws and regulations that are applicable
to the CPF. As part of obtaining reasonable assurance about whether the CPF’s financial statements are
free of material misstatement, we performed tests of the CPF’s compliance with certain provisions of
laws and regulations including but not limited to Dodd-Frank, Accountability for Tax Dollars Act, Federal
Managers’ Financial Integrity Act, and Anti-Deficiency Act noncompliance with which could have a
direct and material effect on the determination of the financial statements amounts, and certain
provisions of other laws and regulations specified in the Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We limited our
tests of compliance to the provisions described in the preceding sentence, and we did not test
compliance with all laws and regulations applicable to the CPF. However, providing an opinion on
compliance with those provisions was not an objective of our audit, and accordingly, we do not express
such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 07-04.

The report is intended solely for the information and use of the management of the CPF, OMB, the U.S.
Government Accountability Office, and the U.S. Congress and is not intended to be and should not be
used by anyone other than these specified parties.




                                        WILLIAMS, ADLEY & COMPANY-DC, LLP
                              Certified Public Accountants / Management Consultants
       1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                                www.williamsadley.com
              Independent Auditors’ Report on Internal Control over Financial Reporting


Chairman and Inspector General of the
U.S. Commodity Futures Trading Commission

We have audited the Principal Statements (hereinafter referred to as the “financial statements”) of the
Commodity Futures Trading Commission Customer Protection Fund (CPF) as of and for the year ended
September 30, 2012, and have issued our report thereon dated October 24, 2012.

CPF management is responsible for establishing and maintaining effective internal control. In planning
and performing our audits, we considered the CPF’s internal control over financial reporting by
obtaining an understanding of the CPF’s internal control, determining whether internal controls had
been placed in operation, assessing control risk, and performing tests of controls as a basis for designing
our audit procedures for the purpose of expressing our opinion on the financial statements but not to
express an opinion on the effectiveness of the CPF’s internal control over financial reporting.
Accordingly we do not express an opinion on the effectiveness of the CPF’s internal control over
financial reporting. We limited our internal control testing to those controls necessary to achieve the
objectives described in the Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. We did not test all internal controls
relevant to operating objectives broadly defined by the Federal Managers’ Financial Integrity Act of
1982 such as those controls relevant to ensuring efficient operations.

Our consideration of internal control over financial reporting was for the limited purpose described in
the preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies that adversely affects the CPF’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with accounting principles generally accepted in the United
States of America such that there is more than a remote likelihood that a misstatement of the CPF’s
principal financial statements that is more than inconsequential will not be prevented or detected by
the CPF’s internal control. A material weakness is a significant deficiency, or combination of significant
deficiencies, that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected.

In our fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.

                                        WILLIAMS, ADLEY & COMPANY-DC, LLP
                              Certified Public Accountants / Management Consultants
       1030 15th Street, NW, Suite 350 West • Washington, DC 20005 • (202) 371-1397 • Fax: (202) 371-9161
                                                www.williamsadley.com
This report is intended solely for the information and use of management of the Customer Protection
Fund, OMB, U.S. Government Accountability Office, and the U.S. Congress and is not intended to be and
should not be used by anyone other than these specified parties.
FINANCIAL STATEMENTS FOR THE 

  CUSTOMER PROTECTION FUND 

    REPORT TO CONGRESS


     As of September 30, 2012 

                                                                 U.S. Commodity Futures Trading Commission
                                                       Customer Protection Fund Report to Congress: Financial Statements


Table of Contents
Financial Statements ....................................................................................................................... 3 
Notes to the Financial Statements ................................................................................................... 7
Supplementary Schedule:
                                                      Cash Flow Analysis……………………………………………… …………………...11 




the Period from July 21, 2010 to September 30, 2011




                                                                                      2
                                        Commodity Futures Trading Commission
                                             Customer Protection Fund
                                                      Balance Sheets
                                           As of September 30, 2012 and 2011

                                                                                  2012             2011
Assets
Intragovernmental:
1 Fund Balance With Treasury (Note 2)                                        $    22,904,529   $   23,755,000
2    Investments (Note 3)                                                         77,135,901                -
6 Total Intragovernmental                                                        100,040,430       23,755,000
Total Assets                                                                 $   100,040,430   $   23,755,000



Liabilities
Liabilities With the Public
        Accrued Funded Payroll                                               $       43,681    $           -
Total Liabilities                                                            $       43,681    $           -



Net Position
32. Cumulative Results of Operations - Earmarked                             $    99,996,749   $   23,755,000
Total Net Position                                                                99,996,749       23,755,000
Total Liabilities and Net Position                                           $   100,040,430   $   23,755,000


The accompanying notes are an integral part of these financial statements.




                                                              3

                                  Commodity Futures Trading Commission
                                       Customer Protection Fund
                                          Statements of Net Cost
                             For the Years Ended September 30, 2012 and 2011


Net Costs (Note 5)                                                   2012              2011


Gross Costs                                                  $         479,789     $          -
Less: Earned Revenue                                                    (12,918)              -
Total Net Cost of Operations                                 $         466,871     $          -


The accompanying notes are an integral part of these financial statements.




                                                        4

                                          Commodity Futures Trading Commission
                                                   Customer Protection Fund
                                           Statements of Changes in Net Position
                                     For the Years Ended September 30, 2012 and 2011


                                                                                   2012              2011

Cumulative Results of Operations


Beginning Balances, October 1                                                 $    23,755,000    $          -

Budgetary Financing Sources

Other Financing Sources:
    Transfers-In/Out Without Reimbursement (+/-)                                   76,708,620        23,755,000

Net Cost of Operations                                                               (466,871)              -

Net Change                                                                         76,241,749        23,755,000


Total Cumulative Results of Operations as of Reporting Date                   $    99,996,749    $   23,755,000


Net Position, September 30, 2012                                              $    99,996,749    $   23,755,000


The accompanying notes are an integral part of these financial statements.




                                                               5

                                   Commodity Futures Trading Commission
                                        Customer Protection Fund
                                       Statements of Budgetary Resources
                                For the Years Ended September 30, 2012 and 2011


                                                                        2012                  2011

BUDGETARY RESOURCES
Unobligated Balance, October 1                                  $      23,755,000        $          -
Spending Authority from Offsetting Collections                         76,721,538            23,755,000
Total Budgetary Resources                                       $     100,476,538        $   23,755,000
STATUS OF BUDGETARY RESOURCES
Obligations incurred                                            $            479,789     $             -
Apportioned                                                            12,558,748                     -
Unapportioned                                                          87,438,001            23,755,000
Total Unobligated Balance, September 30                                99,996,749            23,755,000
Total Status of Budgetary Resources                             $     100,476,538        $   23,755,000
CHANGE IN OBLIGATED BALANCES
Obligations Incurred                                                         479,789                   -
Outlays (gross)                                                              (436,108)                 -
          Unpaid Obligations, end of year (gross)                              43,681                  -
Net Obligated Balance, September 30                             $             43,681     $             -
NET BUDGET AUTHORITY AND OUTLAYS
Budget Authority, Gross                                         $       76,721,538       $    23,755,000
Actual offsetting collections                                          (76,721,538)          (23,755,000)
Outlays (gross)                                                            436,108                     -
Actual offsetting Collections                                          (76,721,538)          (23,755,000)
NET OUTLAYS                                                     $      (76,285,430)      $   (23,755,000)


The accompanying notes are an integral part of these financial statements.




                                                       6

                               Notes to the Financial Statements

                       For the Years Ended September 30, 2012 and 2011 


Note 1. Summary of Significant Accounting Policies

A. Reporting Fund
The Commodity Futures Trading Commission (CFTC or the Commission) is an independent agency of the
executive branch of the Federal Government. Its mission is to “protect market users and the public from
fraud, manipulation, and abusive practices related to the sale of commodity futures and options, and to
foster open, competitive, and financially sound commodity futures and options markets.”
On July 21, 2010, the “Dodd-Frank Wall Street Reform and Consumer Protection Act” (the Dodd-Frank
Act, or the Act) was signed into law, significantly expanding the powers and responsibilities of the CFTC.
According to Section 748 of the Act, there is established in the Treasury of the United States a revolving
fund known as the “Commodity Futures Trading Commission Customer Protection Fund” (the Fund).
The Fund shall be available to the Commission, without further appropriation or fiscal year limitation, for
a) the payment of awards to whistleblowers; and b) the funding of customer education initiatives designed
to help customers protect themselves against fraud or other violations of this Act or the rules and
regulations thereunder.
The Act requires CFTC to transmit to the Committee on Agriculture, Nutrition and Forestry of the Senate,
and the Committee on Agriculture of the House of Representatives a report which includes a complete set
of audited financial statements and supplementary information, including balance sheet, income
statement, and cash flow analysis, no later than October 30, of each year.

B. Basis of Presentation
The financial statements have been prepared to report the financial position and results of operations for
the Fund, as required by the Dodd-Frank Act. These statements have been prepared from the Fund’s
books and records, which are a component of the Commission’s books and records, in conformity with
U.S. generally accepted accounting principles (GAAP), as prescribed for the federal government by the
Federal Accounting Standards Advisory Board (FASAB) and in accordance with the form and content
requirements contained in Office of Management and Budget (OMB) Circular No. A-136, “Financial
Reporting Requirements,” as amended.

The Fund was established in July 2010 and funded by transfers from CFTC’s Civil Monetary Penalties,
Fines and Administrative Fees receipt account. These transfers do not meet the criteria of reportable
revenue as defined by the Statement of Federal Financial Accounting Standards (SFFAS) Number 7,
“Accounting for Revenue and Other Financing Sources and Concepts for Reconciling Budgetary and
Financial Accounting.”
The financial statements report on the Fund’s financial position, changes in net position, net cost and
budgetary resources. The books and records of the Fund served as the source of information for preparing
the financial statements in the prescribed formats. All Fund financial statements and reports used to
monitor and control financial resources are prepared from the same books and records. The statements
should be read with the understanding that they relate to a fund controlled by CFTC, a component of the
U.S. Government, a sovereign entity.
The Balance Sheet presents the financial position of the Fund. The Statement of Net Cost presents the
Fund’s operating results. The Statement of Changes in Net Position displays the changes in the Fund’s net
position, and the Statement of Budgetary Resources shows the spending authority of the fund derived
from the deposits eligible from civil monetary collections.

C. Fund Balance with Treasury

Fund Balance with Treasury is the aggregate amount of the Fund’s balance with the U.S. Treasury. The
balance in the Fund is available to pay current liabilities and finance authorized operations.


                                                    7

The Fund does not maintain bank accounts of its own, has no disbursing authority, and does not maintain
cash held outside of Treasury. Treasury makes disbursements for the Fund.

D. Investments in U.S. Government Securities
The CFTC has authority to invest amounts in the Customer Protection Fund in market based U.S Treasury
securities. The interest earned on the investments is a component of the Fund and is available to be used
for expenses of the Fund. Additional details regarding Customer Protection Fund investments are
provided in Note 3. Investments, Net.
Market-based Treasury securities are debt securities that the U.S. Treasury issues to Federal entities
without statutorily determined interest rates. Although the securities are not marketable, the terms
(prices and interest rates) mirror the terms of marketable Treasury securities.

E. Liabilities
The Fund’s liabilities consist of actual and estimated amounts that are likely to be paid as a result of
transactions covered by the Whistleblower Incentives and Protection regulation, and will be paid from
available balances remaining in the Fund. In addition, the salaries and operating expenses of the
Whistleblower’s Office and Consumer Outreach Office were funded through the Fund. As of September
30, 2012, liabilities consisted of salaries payable of $43,681. No liabilities existed as of September 30,
2011. The Fund’s liabilities are considered current liabilities.

F. Earmarked Funds
The Fund contains earmarked funds which can only be used to operate a whistleblower program and
support customer education initiatives. See Note 1.A. for a description of the purpose of the Fund and its
authority to use the revenues and other financing sources. Deposits into the Fund are credited from
monetary sanctions collected by the Commission in any covered judicial or administrative action that are
not otherwise distributed to victims of a violation of the Dodd-Frank Act or the rules and regulations
underlying such action, unless the balance of the Fund at the time the monetary judgment is collected,
exceeds $100 million. No new legislation was enacted as of September 30, 2012 that significantly
changed the purpose of the earmarked fund or redirected a material portion of the accumulated balance.

G. Revenues and Other Financing Sources
The CFTC Customer Protection Fund is funded through monetary sanctions resulting from judicial or
administrative action brought by the Commission under the Commodity Exchange Act. All collections are
deposited into a receipt account. Eligible collections are transferred into the Fund from the CFTC’s Civil
Monetary Penalties, Fines and Administrative Fees receipt account.
Congress enacted the Dodd-Frank Act that provides the CFTC with the authority to establish the Fund.
The Fund is available to the Commission, without further appropriation or fiscal year limitation. These
funds are considered financing sources under U.S. Treasury Department guidelines. Per the Act, no
sanction collected by the Commission can be deposited into the Fund if the Fund’s balance exceeds $100
million. The CFTC may request the Secretary of the Treasury to invest Fund amounts in Treasury
obligations. Eligible collections were deposited into this new Fund during fiscal years 2012 and 2011.


H. Intra- and Inter-Agency Relationships
The CFTC is an independent federal agency. The Commodity Futures Trading Commission Customer
Protection Fund is a fund within the CFTC, and these financial statements present a segment of the CFTC
financial activity. The financial events of the Fund are consolidated into the CFTC annual financial
statements.

I. Use of Management Estimates
No management estimates were used to prepare these financial statements.


                                                    8

J. Limitations of the Financial Statements
The principal financial statements included in this report have been prepared to report the financial
position and results of operations of the Fund, pursuant to the requirements of Section 748 of the Dodd-
Frank Consumer Protection Act. While the statements have been prepared from the books and records of
the CFTC in accordance with GAAP for federal entities, the statements are in addition to the reports used
to monitor and control the financial activity of the CFTC, which are prepared from the same books and
records. The statements should be read with the understanding that they are for the Customer Protection
Fund, a single fund within the CFTC.

Note 2. Fund Balance with Treasury

The Fund Balance with Treasury by type of fund and Status of Fund Balance with Treasury as of
September 30, 2012 and 2011 consists of the following:

                                                         2012                  2011


Revolving Funds                                    $    22,904,529      $    23,755,000

TOTAL FUND BALANCE WITH TREASURY                   $    22,904,529      $    23,755,000
Revolving Funds
Unobligated Fund Balance
   Available                                       $    12,558,748      $             -
    Unavailable                                         10,302,100           23,755,000
Obligated Balance Not Yet Disbursed                         43,681                    -
Total Revolving Funds                                   22,904,529           23,755,000
TOTAL FUND BALANCE WITH TREASURY                   $    22,904,529      $    23,755,000


A. Reconciliation to Treasury
There are no differences between the fund balance reflected in the CPF Balance Sheet and the balance in
the Treasury Account.


B. Fund Balance with Treasury
Fund Balance with Treasury consists of collections of fines and penalties not owed to harmed investors.
Obligation of these funds is controlled by apportionments made by OMB. Until such funds are
apportioned by OMB, they are unavailable to be obligated.




                                                   9

Note 3. Investments, Net

On June 1, 2012, the CFTC began investing funds in overnight non-marketable market-based Treasury
bills. Treasury overnight certificates of indebtedness are issued with a stated rate of interest to be applied
to their par amount, mature on the business day immediately following their issue date, are redeemed at
their par amount at maturity, and have interest payable at maturity. Non-marketable market-based
Treasury securities are issued by the Bureau of Public Debt to Federal agencies. They are not traded on
any securities exchange but mirror the prices of similar Treasury securities trading in the Government
securities market. As of September 30, 2012, the net investments were $77,135,901.

Note 4. Contingencies

Unasserted claims are actions or potential actions the Commission is aware of in which future events may
result in claims against the fund.

As mentioned in Note 1.A. Reporting Fund, the Commodity Futures Trading Commission Customer
Protection Fund will be used to pay awards to whistleblowers if they voluntarily provide original
information to the CFTC that leads to the successful enforcement by the CFTC of a covered judicial or
administrative action in which monetary sanctions exceeding $1 million are imposed. Whistleblowers are
entitled to appeal any decisions by Commission in regards to claims made against the fund.

In accordance with Federal Accounting Standards, CFTC records contingent liabilities for any unasserted
claim in which payment has been deemed probable and for which the amount of potential liability can be
estimated. The Commission also discloses all claims for which payment is reasonably possible.

There were no unasserted claims that deemed reasonably probably and measurable, or reasonably
possible, as of September 30, 2012 or 2011, respectively.

Note 5. Intragovernmental Costs

The Statement of Net Cost presents the Customer Protection Fund’s results of operations for the activities
to run the Whistleblower’s Office and Consumer Outreach Office.

Intragovernmental costs arise from the purchases of goods and services from other components of the
Federal Government (including other CFTC funds). In contrast, public costs are those which arise from
the purchase of goods and services from non-Federal entities. The Whistleblower’s Office and Consumer
Outreach Office incurred $458 thousand in net intragovernmental costs and $9 thousand in net costs with
the public in FY 2012.




                                                     10 

                                                                                Supplementary Schedule



                                        Commodity Futures Trading Commission

                                                Customer Protection Fund

                                                   Cash Flow Analysis

                               For thePeriod from October 1, 2011 to September 30,2012




Cash as of October 1, 2011                                                                       $   23,755,000

Cash flows from (used) in operating activities
   Paid Expenses for WhistleBlower Office and Consumer Outreach Office      $       (436,108)
   Interest earned from investing in US Treasuries                                    12,918
  Net cash flowsfromoperating activities                                                         $     (423,190)

Cash flows used in investing activities
   Investments in US Treasuries                                             $     (77,135,901)
  Net cash flows from investing activities                                                       $   (77,135,901)

Cash flows from financing activities
   Transfers in from Civil Monetary Sanctions                               $     76,708,620
  Net cash flows from financing activities                                                       $   76,708,620

Net increase/(decrease) in cash and cash equivalents                                             $     (850,471)

Cash as of September 30, 2012                                                                    $   22,904,529




                                                         11 

